No. 19-1173

Supreme Court of the United States
COMCAST CORPORATION, et al.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar of this
Court representing a party on whose behalf service is made, and I served three copies of
the BRIEF OF THE R STREET INSTITUTE, THE INNOVATION DEFENSE FOUNDATION,
LINCOLN NETWORK, AND THE ELECTRONIC FRONTIER FOUNDATION AS AMICI
CURIAE IN SUPPORT OF THE PETITION in the above-identified case, upon all parties
required to be served. Service was performed by U.S. priority mail to counsel of record
listed on the following page.

Respectfully submitted,
Dated: April 24, 2020
CHARLES DUAN
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae

LIST OF PARTIES SERVED
DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
1155 F Streeet NW
7th Floor
Washington, DC 20004
202-220-1101
donald.verrilli@mto.com
Counsel for Petitioners Comcast Corporation, et al.
NOEL J. FRANCISCO
SOLICITOR GENERAL
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents International Trade Commission, et al.
JEFFREY ALAN LAMKEN
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, DC 20037
202-556-2010
jlamken@mololamken.com
Counsel for Respondents Rovi Corporation; Rovi Guides, Inc.

